<html>
<title> - MARKUP ON RESOLUTION TO APPROVE FRANKED MAIL ALLOWANCES FOR COMMITTEES IN THE 115TH CONGRESS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]






MARKUP ON RESOLUTION TO APPROVE FRANKED MAIL ALLOWANCES FOR COMMITTEES 
                         IN THE 115TH CONGRESS

=======================================================================

                                 MARKUP

                               before the

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 28, 2017

                               __________

      Printed for the use of the Committee on House Administration




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







                       Available on the Internet:
                             www.fdsys.gov
                             
                                 ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

25-192                         WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                   Committee on House Administration

                  GREGG HARPER, Mississippi, Chairman
RODNEY DAVIS, Illinois, Vice         ROBERT A. BRADY, Pennsylvania,
    Chairman                           Ranking Member
BARBARA COMSTOCK, Virginia           ZOE LOFGREN, California
MARK WALKER, North Carolina          JAMIE RASKIN, Maryland
ADRIAN SMITH, Nebraska
BARRY LOUDERMILK, Georgia

 
MARKUP ON RESOLUTION TO APPROVE FRANKED MAIL ALLOWANCES FOR COMMITTEES 
                         IN THE 115TH CONGRESS

                              ----------                              


                        TUESDAY, MARCH 28, 2017

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 11:35 a.m., in Room 
1310, Longworth House Office Building, Hon. Gregg Harper 
[chairman of the Committee] presiding.
    Present: Representatives Harper, Davis, Loudermilk, Brady, 
and Raskin.
    Staff Present: Sean Moran, Staff Director; Kim Betz, Senior 
Advisor; Max Engling, Franking Director; Cole Felder, Deputy 
General Counsel; Erin McCracken, Communications Director; C. 
Maggie Moore, Legislative Clerk; Rob Taggart, Deputy 
Legislative Clerk/Oversight; Mary Sue Englund, Director of 
Administration & Operations; Jamie Fleet, Minority Staff 
Director; Matt Pinkus, Minority Senior Policy Advisor; Khalil 
Abboud, Minority Chief Counsel; and Eddie Flaherty, Minority 
Chief Clerk.
    The Chairman. I call to order the Committee on House 
Administration for today's Committee markup. A quorum is 
present, so we may proceed.
    The meeting record will remain open for 5 legislative days 
so Members may submit any materials they wish to be included 
therein.
    We are here today to formally approve a Committee 
Resolution to adopt franked mail allowances for committees for 
the 115th Congress.
    Each House committee needs a specific amount of resources 
to conduct business. The resolution before us authorizes an 
allowance of $5,000 per year for each committee's mail, the 
same maximum amount that has been authorized for the past 
several Congresses.
    I believe this is an appropriate level that will meet the 
needs of every committee.
    I would now like to recognize the Ranking Member, Mr. 
Brady, for the purpose of providing an opening statement, if he 
wishes.
    Mr. Brady. Mr. Chairman, I support this routine resolution, 
and I urge its adoption.
    The Chairman. Thank you, Mr. Brady.
    I would ask if any other Member of the Committee wishes to 
be recognized for the purpose of providing an opening 
statement.
    Seeing none, I now call up and lay before the Committee the 
resolution to approve franked mail allowances for committees 
for the 115th Congress.
    Without objection, the first reading of the resolution is 
dispensed with, and the resolution is considered read and open 
for amendment at any point.
    [The resolution follows:]
  
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
  
  
    The Chairman. Is there any debate?
    Are there any Members who want to offer an amendment to the 
resolution?
    If not, I move the Committee adopt the resolution. The 
question is on the motion.
    All those in favor, signify by saying aye.
    Opposed, say nay.
    In the opinion of the Chair, the ayes have it, and the 
motion is agreed to.
    Without objection, the motion to reconsider is laid upon 
the table.
    Without objection, the markup is adjourned.
    [Whereupon, at 11:37 a.m., the committee was adjourned.]
</pre></body></html>
